OFFICE OF INSPECTOR GENERAL
               Audit Report
Audit of the Railroad Medicare Integrity Program at
  Palmetto Government Benefits Administrators


                Report No. 09-04
               September 25, 2009




   RAILROAD RETIREMENT BOARD
                                     TABLE OF CONTENTS


Introduction
 Background .......................................................................................................1
 Audit Objective ..................................................................................................3
 Scope ................................................................................................................3
 Methodology......................................................................................................3

Results of Audit
 Proactive Fraud Investigations and Data Analysis Are Limited .........................6
 Additional Budget and Accounting Detail Is Needed .........................................7
 CERT Methodology Would Strengthen Improper Payment Estimates ..............8
 Identification of Excluded Providers is Not Fully Effective ...............................11
 Excluded Provider Investigations Could Identify Improper Payments .............12
 High Dollar Transactions Should Be Referred for Investigation.......................13
 Investment in Fraud Training is Needed..........................................................14
 Benefit Integrity Procedures Can Be Improved ...............................................15
 RRB Oversight of Contractor Operations Should Be Strengthened ................17
 Prioritization of Information Requests Could Be Improved ..............................18
 Waiver of Medical Director Should Be Requested...........................................19
 Internal Reporting of Overpayment Recoveries Could Assist Operations .......20

Appendices
 Appendix I Estimated Improper Payment Levels............................................22
 Appendix II Evaluation of Benefit Integrity Procedures...................................23
 Appendix III Response from RRB Management.............................................29
 Appendix IV Response from Palmetto Management......................................32
                                        INTRODUCTION

This report presents the results of the Railroad Retirement Board (RRB), Office
of Inspector General’s (RRB-OIG) audit of the Railroad Medicare Integrity
Program at Palmetto Government Benefits Administrators (Palmetto).

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and
their families under the Railroad Retirement Act (RRA) and the Railroad
Unemployment Insurance Act (RUIA). These programs provide income
protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid approximately $10.2 billion in
retirement/survivor and unemployment/sickness benefits to 628,000 beneficiaries
during fiscal year (FY) 2008. The RRB is headquartered in Chicago, Illinois and
has 53 field offices nationwide.

Railroad Medicare

The Centers for Medicare and Medicaid Services (CMS) have overall
responsibility for the Medicare program. The RRB has statutory authority to
contract with a separate Medicare carrier. 1 Since April 2000, the RRB has
contracted with Palmetto to be the agency’s nationwide Medicare Part B carrier.
In this role, Palmetto is responsible for processing Medicare Part B claims for
qualified Railroad Retirement beneficiaries. In fiscal year 2008, Railroad
Medicare paid out approximately $844 million for Part B medical services. In
connection with its separate carrier authority, the RRB is responsible for certain
Medicare program activities such as enrollment, premium collection, answering
beneficiary inquiries and conducting the annual carrier performance evaluation
for the Medicare carrier. The RRB manages one nationwide contract with
Palmetto for processing Medicare Part B claims for all railroad beneficiaries.

The Inspector General Act of 1978, as amended, authorizes the RRB-OIG to
conduct oversight activities, such as audits and investigations, for all programs
and operations conducted by the RRB. Beginning in fiscal year 1997, an
appropriations law restriction prohibited the RRB-OIG from conducting Railroad
Medicare oversight. In December 2007, President Bush signed P.L 110-161
which restored the RRB-OIG's oversight authority for Railroad Medicare.




1
    Sec. 1842(g) [42 U.S.C. 1395u] of the Social Security Act


                                                  1
Medicare Integrity Program

The CMS is responsible for ensuring that charges are paid only for reasonable
and necessary Medicare services. The Health Insurance Portability and
Accountability Act (HIPAA) of 1996 created the Medicare Integrity Program (MIP)
which consists of medical review, cost report audit, data analysis, provider
education, and fraud detection and prevention. The MIP was established, in part,
to strengthen CMS' ability to deter fraud and abuse in the Medicare program.

CMS follows four parallel strategies in meeting this goal: 1) preventing fraud
through effective enrollment and through education of providers and
beneficiaries; 2) early detection through, for example, medical review and data
analysis; 3) close coordination with partners, including contractors and law
enforcement agencies; and 4) fair and firm enforcement policies.

CMS established regional Program Safeguard Contractors (PSCs) to perform
specific MIP functions under contract including:

    •   Fraud case development
    •   Fraud complaint processing
    •   Provider education
    •   Pre-payment and post-payment medical review
    •   Data analysis
    •   Law enforcement support

The primary goal of program integrity is to pay claims correctly and protect the
Medicare Trust Fund from fraud, waste and abuse. 2 In order to meet this goal,
contractors must ensure that they pay the right amount for covered and correctly
coded services rendered to eligible beneficiaries by legitimate providers.

Contract Responsibilities

The RRB’s contract with Palmetto states that, “The contractor shall perform all
carrier functions for individuals enrolled in Part B of the Railroad Medicare
program throughout the United States.” Railroad Medicare claims are submitted
by providers who are located in multiple regions. The RRB does not contract
with a regional PSC and Palmetto retains all responsibility for MIP activities.

Maintaining benefit integrity is one of Palmetto's MIP responsibilities under its
cost reimbursement contract with the RRB. The primary goal of this function is to
identify and fully develop cases of suspected fraud in a timely manner.
Immediate action is necessary to ensure that Medicare Trust Fund monies are
not inappropriately paid out and that any mistaken payments are recovered.

2
 During 2009, Medicare spending will account for almost 20 percent of the federal budget and
3.2 percent of gross domestic product (GDP).


                                               2
Suspension and denial of payments and the recoupment of overpayments are an
example of the actions that may be taken. All cases of potential fraud are to be
referred to the RRB-OIG’s Office of Investigations for consideration and initiation
of criminal or civil prosecution, civil monetary penalty, or administrative sanction
actions. Palmetto’s Benefit Integrity (BI) unit works directly with the RRB-OIG’s
Office of Investigations to achieve this goal.

Within the Program Support Division, the RRB’s Medicare Contractor Operations
Specialists (MCOSs) provide contract oversight and act as communication
liaisons with Palmetto. The MCOSs performed five reviews of Palmetto’s
operations during FY 2008.

Program Guidance

As referenced in the Medicare Part B Budget and Performance Requirements,
contractor budget requests should ensure implementation of all program
requirements in the Program Integrity Manual (PIM) and all applicable
transmittals. Medicare contractors shall follow the PIM to the extent outlined in
their respective statements of work. The PIM supports the Government
Performance Results Act which requires contractors to reduce the error rates
identified in the Chief Financial Officer’s audit and Comprehensive Error Rate
Testing program.

The RRB's strategic plan prescribes effectiveness, efficiency and security of
operations as objectives within the agency's larger goal of serving as responsible
stewards of the trust funds and financial resources under agency control. This
audit supports those objectives.

Audit Objective

The objective of our audit was to identify areas for improvement in the MIP
implemented by Palmetto.

Scope

The scope of our audit was MIP activities during FY 2008.

Methodology

To accomplish our objective, we:

   •    identified and reviewed the laws and regulations applicable to Railroad
        Medicare;
   •    interviewed Palmetto and RRB officials responsible for Railroad Medicare;




                                         3
   •   reviewed and compared Railroad Medicare contract terms and CMS
       requirements;
   •   analyzed Palmetto’s claims error rate methodology and compared it with
       CMS’ Comprehensive Error Rate Testing methodology;
   •   reviewed high dollar overpayment receivables;
   •   examined complaint and case records within the Fraud and Abuse Case
       Tracking System (FACTS) database;
   •   tested and reconciled balances contained in select line items that
       comprise total expense for benefit integrity;
   •   obtained an understanding of the Palmetto cost accounting system,
       reviewed select cost accounting transactions, and traced their support;
   •   identified functional activities performed by the Railroad Medicare BI unit
       fraud investigator; Medical Review unit and other program integrity
       functions;
   •   compared Palmetto’s benefit integrity procedures with PIM guidance;
   •   reviewed amounts budgeted and actual costs for benefit integrity activities;
   •   assessed the activities performed by the RRB’s Medicare Contractor
       Operations Specialists; and
   •   evaluated provider outreach and education activities addressing benefit
       integrity.

The foregoing audit procedures were applied to FY 2008 activities. Reference
was also made to prior year data for comparative purposes.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We conducted our audit fieldwork at Palmetto’s Medicare offices located in
Augusta, Georgia and at the RRB’s Headquarters in Chicago, Illinois from
December 2008 through May 2009.




                                         4
                                      RESULTS OF AUDIT

More could be done to identify fraud and abuse in the Railroad Medicare
program by strengthening its Railroad Medicare BI unit. During FY 2008
Railroad Medicare paid $844 million with an estimated exposure to improper
payments of about $31 million based on national averages. 3 By comparison,
Palmetto reported MIP savings of $6.3 million of which 89% was attributable to
coordination of benefits with other healthcare plans, 10% was attributed to
medical review of claims and 1%, or about $40,000 resulted from proactive
benefit integrity activities to identify fraud and abuse.

Our audit disclosed that the Railroad Medicare BI unit has very limited resources
with which to perform proactive fraud investigations and data analysis because
the unit is staffed with only a single full-time employee to perform all required BI
functions. During FY 2008, about two-thirds of the units’ $225,000 in
expenditures were absorbed by indirect costs which are budgeted and reported
without sufficient detail to support an effective budget process.

We observed that Railroad Medicare does not develop estimates of improper
payments using the method used by CMS for other Medicare contractors
nationwide. As a result, Palmetto cannot adequately measure Railroad
Medicare’s potential exposure to errors and improper payments.

In addition, Railroad Medicare BI could be more effective in identifying,
researching and referring potential fraud in the following areas:

        •    identification of providers excluded from the Medicare program;
        •    investigation of claims submitted by excluded providers;
        •    referral of high-dollar payments and claims for investigation; and
        •    fraud training for BI staff.

During our audit, we also concluded that Railroad Medicare’s benefit integrity
procedures should be more complete and that agency oversight could be
strengthened through a longer-term formal planning process. We believe that
compliance could be enhanced by closer adherence to requirements for
prioritizing information requests for information and by requesting a waiver of the
Medicare Director requirement. Finally, we suggest that BI unit personnel might
benefit from periodic reports on the collection status of cases it initiates.

The details of our findings and recommendations for corrective action follow.



3
 This estimate uses the most recent available error rate (3.7% for FY 2007) applied to the FY 2008
payment total.


                                                    5
Proactive Fraud Investigations and Data Analyses Are Limited

Palmetto’s BI unit has performed only a limited number of proactive fraud
investigations and data analyses. Proactive efforts originate in the BI unit and
are not the result of referrals/requests from other organizations.

Contractors should ensure implementation of all program requirements outlined
in the PIM. The PIM establishes the functional responsibilities to be carried out
by the BI unit. The BI unit is responsible for preventing, detecting, and deterring
Medicare fraud. The BI unit:

      •   prevents fraud by identifying program vulnerabilities; and
      •   proactively identifies incidents of potential fraud that exist within its service
          area and takes appropriate action on each case.

BI units are required to use a variety of techniques, both proactive and reactive,
to address any potentially fraudulent provider billing practices. 4

During our audit, we observed that Palmetto’s BI unit had proactively initiated
only one provider investigation during FY 2008. Its fraud database (FACTS)
referenced only six proactive complaints during the past eight years (three during
2001, two during 2002, and one during 2004). Palmetto officials stated that they
do not conduct investigative reviews at offsite provider locations.

Palmetto’s BI unit has not established a proactive fraud-based work plan and
Palmetto management believes the BI unit is understaffed because it has only
one investigator assigned to conduct all CMS PIM requirements. Presented
below is a recap of the disposition of the BI unit’s budget for FY 2008.

                     BENEFIT INTEGRITY UNIT EXPENDITURES
                                       FY 2008
              Labor Costs                        $62,324                   28%
              Direct Non-Labor Costs              13,823                    6%
                                               ========
              Direct Costs of the BI Unit        $76,147                   34%

              Pension & 401 K Costs                         $18,445         8%
              Data Analysis                                  36,061        16%
              Other Allocated Indirect Cost                  57,850        26%
              General & Administrative Expense               36,239        16%
                                                          ========
              Indirect Costs                               $148,595        66%

              Total BI Unit Expenditures                    $224,742      100%

4
    Chapter 4.2.2 of the PIM


                                              6
We observe that the low investment in direct labor is consistent with BI
management’s description of their staffing levels. In addition, about two-thirds of
the relatively small BI unit budget is absorbed by indirect costs, including over
$36,000 of indirect costs allocated from Palmetto and its parent company, Blue
Cross Blue Shield of South Carolina.

If proactive fraud investigations and data analyses are not formally planned,
thoroughly developed and regularly performed, improper Railroad Medicare
payments may go undetected.

Recommendation

We recommend that Palmetto officials:

    1. work with CMS and RRB officials to obtain the budget and staff resources
       needed to conduct the proactive fraud investigation and data analysis
       responsibilities outlined in the PIM.

Management’s Response

Palmetto officials supported our recommendation and agreed with RRB officials
that necessary funding should be pursued to conduct the proactive fraud
investigation and data analysis responsibilities outlined in the PIM. The full text
of Palmetto’s response is included as Appendix IV to this report.


Additional Budget and Accounting Detail Is Needed

Budget planning, monitoring, and reporting are not adequately detailed to support
an effective benefit integrity program for Railroad Medicare. Although Palmetto's
cost accounting system captures time and program cost data, the system doesn’t
capture sufficient detail about its benefit integrity efforts to support informed
decision-making.

Palmetto must track costs in accordance with CMS requirements. CMS currently
provides only a single activity code to capture time and cost data for all of
Palmetto’s Railroad Medicare benefit integrity activities. During our audit, we
observed that prior to FY 2007, CMS’ CAFM II 5 guidance provided eight different
codes for the various responsibilities that comprise benefit integrity.

               • Medicare Fraud Information Specialist
               • Fraud Complaint Development
               • Outreach and Training

5
 Contractor Administrative Budget and Financial Management System II (CAFM II) supports the
national budget of Medicare contractors and is used to administer and monitor Medicare program
payments and report the results of program expenditures.


                                              7
                 •   Fraud Case Development
                 •   Law Enforcement Support
                 •   Medical Review Support of Benefit Integrity Activity
                 •   Fraud Investigation Data
                 •   Referrals to Law Enforcement

Effective for FY 2007, these eight codes were replaced with a single code.
CAFM II guidance for this activity code states that, “[t]he RRB must include costs
for BI outreach and training, potential fraud investigations, case referrals, law
enforcement support, medical review in support of BI, and FID entries in this
Activity Code.” 6

During our audit, we observed that the use of a single activity code would
hamper efforts to hold informed discussions about funding levels and contractor
accomplishments in this area. This effect carries over to the budget process
which no longer includes details about the extent to which the budget will fund all
areas of benefit integrity responsibility which is detrimental to a transparent
budget process. A transparent budget process is critical to ensure that Railroad
Medicare’s investment in benefit integrity activities will be effective in addressing
fraud, waste and abuse.

Recommendation

We recommend that RRB officials:

      2. request that Palmetto officials identify and monitor the specific benefit
         integrity cost components either through revised CAFM II activity reporting
         or independently of the CAFM II process.

Management’s Response

RRB officials agreed with our recommendation and will request the funding to
perform the monitoring starting with the new contract period. The full text of the
RRB’s response is included as Appendix III to this report.


CERT Methodology Would Strengthen Improper Payment Estimates

The Railroad Medicare program has not been assessed by the CMS
Comprehensive Error Rate Testing (CERT) program. Consequently, Railroad
Medicare’s claims processing error rate and improper payments workload
estimates cannot be compared with the rates and workloads of other Medicare
carriers which are computed under the CERT methodology.



6
    FY 2008 Budget and Performance Requirements, Medicare Integrity Program, pgs. 11-12


                                               8
As described in its methodology, CMS calculates the Medicare Fee-For-Service
error rate and estimate of improper claim payments using a methodology
approved by the Department of Health & Human Services, Office of Inspector
General (HHS-OIG). The CERT methodology includes:

    •   randomly selecting a sample of approximately 120,000 submitted claims;
    •   requesting medical records from providers who submitted the claims; and
    •   reviewing the claims and medical records for compliance with Medicare
        coverage, coding and billing rules. 7

According to the PIM, “[t]he contractor shall use their CERT findings as the
primary source of data to base further data analysis in identifying program
vulnerabilities.” 8

CMS’ CERT program determines carrier error rates through a statistical process
that includes onsite validation of provider claim’s supporting medical records at
each participating carrier. In contrast, Palmetto periodically estimates the
Railroad Medicare error rate by using an alternate methodology that does not
include validation of supporting documentation. Therefore, the Palmetto
computed error rates do not reflect claims rejected for insufficient medical
records. A lack of medical records can also be an indicator of potential fraud.

CMS computes Medicare error rates for participating carriers on an individual
basis and collectively determines a national error rate. Since Palmetto
processes multi-state Railroad Part B claims nationally rather than regionally, we
expect to find a correlation between the national error rate and the Railroad
Medicare error rate.

Based on CMS’ computed CERT national error rates, we estimate that Railroad
Medicare’s exposure to improper payments between 1997 and 2007 was
$591 million. 9 This estimate is presented only for the purpose of demonstrating
the broad exposure of Railroad Medicare to fraud and abuse and the importance
of using a widely accepted error estimation methodology in justifying budgetary
investments for loss prevention. As discussed in this report, Palmetto currently
has only one BI unit investigator assigned to handle this workload and performs a
very limited number of proactive fraud investigations.




7
  In 2006, the Government Accountability Office found the CERT methodology to be adequate for
estimation (GAO-06-300).
8
  Chapter 1.2.3 of the PIM
9
  During this period, the RRB-OIG did not have oversight authority for Railroad Medicare. See
Appendix I: “Estimated Improper Railroad Medicare Payments” for the source of this estimate.


                                              9
CMS has not required Railroad Medicare to participate in its CERT program. 10
Palmetto officials do not believe Railroad Medicare needs to be included in the
CERT process. Due to the national scope of the program, Palmetto
management believes that Railroad Medicare providers would be sampled in the
CERT testing of other carriers.

Because Railroad Medicare is not participating in the CERT program, Palmetto
cannot adequately measure and report Railroad Medicare’s exposure to errors
and improper payments. In addition, Palmetto’s performance cannot be
compared to that of other carriers. In determining its current and historical claims
error rate and volume of improper payments, Palmetto relies on its own quality
assurance error rate estimates which are not comparable to the CERT
methodology used for the rest of the Medicare program.

Without a recognized method of estimating exposure to improper payments,
Palmetto management cannot be fully effective in recommending funding levels
for benefit integrity investment. Overall, the effectiveness of Palmetto’s Railroad
Medicare MIP, which includes the BI unit, is diminished.

Recommendations

We recommend that RRB officials:

      3. petition CMS to become an active participant in the CERT program;
      4. determine the CERT compliant error rate applicable to its Part B workload; and
      5. request funding to support a benefit integrity program commensurate with
         Railroad Medicare’s exposure to improper payments as estimated using CERT
         methodology.

Management’s Response

RRB officials agreed with our recommendations and will submit the request along
with the budget request for FY 2010. These officials also indicated that the
formation of a Railroad Specialty MAC in coordination with CMS would address
and provide for these functions and program safeguards. The full text of the
RRB’s response is included as Appendix III to this report.




10
     Palmetto’s Railroad Medicare operations are identified as CMS Carrier #882


                                                10
Identification of Excluded Providers is Not Fully Effective

The Provider Enrollment unit is not using all available resources to identify
providers who should be excluded from the Medicare program.

The PIM requires carriers to exclude parties barred by the General Services
Administration (GSA) from receiving Federal contracts. 11 An excluded individual
or entity that submits a claim for reimbursement to a Federal health care
program, or causes such a claim to be submitted, may be subject to a Civil
Monetary Penalty of $10,000 for each item or service furnished during the period
that the person or entity was excluded. 12

During our audit, we observed that although the Provider Enrollment unit screens
prospective healthcare providers against the HHS-OIG’s List of Excluded
Individuals/Entities (LEIE), they do not employ GSA’s Excluded Parties List
System (EPLS). EPLS identifies individuals and organizations who have been
excluded from Federal procurement and non-procurement programs as well as
certain other individuals and organizations identified for sanction by the
Department of Treasury, such as drug traffickers and terrorists.

Our review disclosed that enrollment unit procedures did not include any
reference to the EPLS. We inquired further about this matter in a follow-up
discussion which did not reveal any additional information concerning why EPLS
was not in use.

If all available resources are not used, excluded parties may be enrolled in
Railroad Medicare and receive payments to which they are not entitled.

Recommendation

We recommend that Palmetto officials:

      6. revise its sanction monitoring procedure to ensure that the Provider
         Enrollment unit performs a reconciliation with the EPLS.

Management’s Response

Palmetto management responded that, per CMS instructions, Railroad Medicare
does not process 855 enrollment forms and that the criteria cited in the draft audit
report was specific to the processing of that form. Railroad Medicare enrolls only
those providers who have already been credentialed and enrolled by other
carriers to whom Form 855 had been submitted. The full text of Palmetto’s
response is included as Appendix IV to this report.


11
     PIM Chapter 10, Section 1.3; Chapter 4, Section 4.19.4.1
12
     Section 1128A(a)(1)(D) of the Social Security Act


                                                 11
RRB OIG’s Comments on Management’s Response

We do not disagree that PIM Chapter 10, Section 1.3 limits prescreening
responsibility to those charged with processing Form 855. However, we note
that contractors have ongoing responsibility to ensure that sanctioned providers
are not being inappropriately paid. PIM Chapter 4, Section 4.19.4.1 discusses
this responsibility and we have added this reference to the related report
footnote. To meet this responsibility, Palmetto management states that “all
existing providers are checked monthly against the LEIE,” with no mention of
EPLS.

Requirements of the PIM not withstanding, EPLS is an important resource for the
identification of providers who should be excluded from the Medicare Program.
We stand by our observation that Palmetto is not using all available resources to
identify providers who should be excluded because Railroad Medicare
procedures do not reference EPLS and responsible staff were not knowledgeable
about this resource.


Excluded Provider Investigations Could Identify Improper Payments

When Palmetto identifies a provider that has been excluded from the Medicare
program, Railroad Medicare suspends future payments to that provider.
However, the BI unit does not identify and investigate claims paid prior to that
suspension.

According to the PIM, “[i]f the contractor or PSC believes there are past periods
of time that may contain possible overpayments, contractors and PSCs shall
consider recommending a new suspension of payment covering those dates.” 13
The PIM further states that the BI unit, “[i]nitiates appropriate administrative
actions to deny or to suspend payments that should not be made to providers
where there is reliable evidence of fraud.” 14

During our audit we observed that 446 (14%) of the 3,129 providers listed in the
LEIE as excluded from the program during FY 2008 were enrolled in Railroad
Medicare. These providers may have submitted fraudulent or improper claims
prior to their exclusion. The BI unit has not determined how many potential
overpayments were made to these providers prior to their exclusion date.

Current Railroad Medicare procedures do not provide for investigation of claims
submitted prior to exclusion.




13
     Chapter 3.9.2.7 of the PIM
14
     Chapter 4.2.2 of the PIM


                                        12
Providers are excluded from the Medicare program for cause. Exclusion is an
indicator that the provider may have submitted fraudulent or otherwise improper
claims for payment in the past. Railroad Medicare cannot recoup overpayments
unless such claims are identified, evaluated and investigated by the carrier.

Recommendation

We recommend that Palmetto officials:

      7. establish BI unit procedures for investigating payments submitted by
         excluded providers prior to their exclusion date and refer claims to the
         RRB-OIG’s Office of Investigations for further investigation as appropriate.

Management’s Response

Palmetto officials indicated that they have created a procedure to perform data
analysis on claims prior to the exclusion date. The data analysis will include all
claims dated back 5 years from the date of exclusion. The claims and any other
relevant information will be reviewed for fraudulent activity. The full text of
Palmetto’s response is included as Appendix IV to this report.


High Dollar Transactions Should Be Referred For Investigation

Palmetto does not refer its high dollar receivables and payments to the
RRB-OIG’s Office of Investigations for fraud evaluation.

The CMS Carriers Manual requires carriers to effectively and continually analyze
data that identifies aberrancies, emerging trends and areas of potential abuse,
over utilization or inappropriate care, and focus on areas where the trust fund is
most at risk, i.e., highest volume and/or highest dollar codes. 15

HHS-OIG considers claims for payment of $10,000 or more to be at high risk for
overpayment through error or fraud. In addition, the RRB-OIG can evaluate the
circumstances of an identified overpayment to determine whether fraud was
involved.

During our audit we identified nine provider receivables recorded during FY 2008
greater than $10,000 which could have been referred to the RRB-OIG’s Office of
Investigations, but were not.




15
     Section 5261.3


                                          13
Palmetto has not established a procedure for flagging and referring its high dollar
payments and receivables to the RRB-OIG’s Office of Investigations for further
investigation. If high dollar transactions are not referred to the RRB-OIG’s Office
of Investigations, provider fraud may go undetected.

As result, fraud in the Railroad Medicare program may not be identified timely.

Recommendation

We recommend that Palmetto officials:

      8. coordinate the referral of high dollar payments and receivables, those in
         excess of $10,000, with the RRB-OIG’s Office of Investigations.

Management’s Response

Palmetto officials agreed with our recommendation and will provide the BI unit
with a monthly RRB accounts receivable report. Any overpayments over
$10,000 will be referred to the BI unit investigator and the RRB OIG. The full text
of Palmetto’s response is included as Appendix IV to this report.


Investment in Fraud Training is Needed

Palmetto’s BI unit investigator is not receiving periodic fraud training. The
primary investigator is the focal point for the development and performance of
proactive fraud initiatives and statistical data analysis work plans.

The PIM requires that BI unit staff be adequately qualified for the work of
detecting and investigating situations of potential fraud and that each BI unit send
the appropriate representative(s) to CMS' national benefit integrity training each
year it is provided. Additionally, all levels of employees shall know the goals and
techniques of fraud detection and control in general and as they relate to their
own areas of responsibility (i.e., general orientation for new employees and
highly technical sessions for BI unit staff and if applicable, medical review
staff). 16

The RRB’s contract with Palmetto for Medicare Part B Services requires
minimum training of 16 hours per year on fraud detection techniques/data
analysis and 4 hours of interviewing techniques. 17




16
     Chapter 4.2.2.3 of the PIM
17
     RRB Contract No. 00RRB005 (Attachment B)


                                            14
During our audit, we observed that this investigator had not received training
since accepting the position in July 2007. Palmetto has not enforced staff
compliance with the CMS PIM and RRB contract training requirements. Palmetto
officials indicated that funding had not been available for training.

If Palmetto staff that are responsible for benefit integrity investigative work do not
receive adequate refresher training in fraud related subjects, potential fraudulent
scenarios or improper payments may go undetected.

Recommendation

We recommend that Palmetto officials:

     9. request specific funding for fraud related training and actively monitor staff
        compliance with the CMS’ PIM and the RRB contract’s benefit integrity
        training requirements.

Management’s Response

Palmetto officials did not agree with our recommendation and indicated that its
program support staff receives technical based training at least annually while
each RRB contract associate periodically receives a minimum of 15 minutes of
fraud awareness training for a total of 50 hours annually. The BI unit investigator
is currently obtaining Certified Fraud Examiner status. The full text of Palmetto’s
response is included as Appendix IV to this report.

RRB OIG’s Comments on Management’s Response

Our audit recommendation addressed specialized training in the areas of fraud
detection, data analysis and interviewing techniques as required by CMS and the
RRB’s contract terms. Our fieldwork determined that BI unit staff had not
received this form of training. While achievement of Certified Fraud Examiner
status is a positive step, periodic specialized fraud training is required.


Benefit Integrity Procedures Can Be Improved

Palmetto’s benefit integrity procedures do not address all PIM requirements.

According to the PIM, “[c]ontractors shall provide written procedures for
personnel in various contractor components (claims processing, MR 18 ,
beneficiary services, POE 19 , intermediary audit, etc.) to help identify potential
fraud situations.” 20

18
   Medical Review
19
   Provider Outreach and Education
20
   Chapter 4.2.2.4 of the PIM


                                          15
During our audit, we observed that the BI unit had not established procedures
for:

   •   Initiating and conducting the investigation and recoupment of prior
       overpayments to excluded providers. Potentially fraudulent claims prior to
       the date of exclusion are not investigated.
   •   Referring high dollar accounts receivable to RRB-OIG’s Office of
       Investigations for investigative review.
   •   Reimbursement when the beneficiary has paid a provider for services and
       the provider has received payment.
   •   Assisting a beneficiary when referred to a collection agency by a provider.
   •   Requests for beneficiary and provider information from outside
       organizations including disclosure requirements.
   •   Requests from RRB-OIG’s Office of Investigations for data and other
       records including timeframes for responding to priority requests.
   •   Fraud Investigation Database (FID) complaint and recovery data entry and
       maintenance including time frames, classification and sensitivity.

The BI unit had not developed policies and procedures that fully addressed all of
its PIM functional requirements. Without these procedures, BI unit staff will not
have access to the reference information required to address its program
requirements and conduct specific operational tasks in an efficient and timely
manner.

Additional details regarding these procedural deficiencies are included in
Appendix II.

Recommendation

We recommend that Palmetto officials:

   10. correct the identified BI unit procedural deficiencies and ensure that
       procedures have been developed to address all CMS PIM requirements.

Management’s Response

Palmetto officials agreed with our recommendation and advised that procedures
were established as of August 13, 2008. As noted while the auditors were on-
site, some of the procedures listed in the audit report had established procedures
and were provided at the time of review. These officials also indicated that an
ISO 9000 audit of the BI unit completed on July 28, 2009 resulted in no
deficiencies and met CMS control objectives. The full text of Palmetto’s
response is included as Appendix IV to this report.



                                        16
RRB OIG’s Comments on Management’s Response

In some cases, the procedures provided for our review did not adequately
address the CMS PIM requirements.


RRB Oversight of Contractor Operations Should Be Strengthened

The RRB has not established a timeframe for conducting recurring reviews of
Palmetto’s MIP 21 components, including the BI unit. These reviews are part of
the RRB’s overall responsibility for contractor oversight.

Under the current contract, the RRB conducts evaluations of Palmetto’s Railroad
Medicare performance. During our audit, we observed that the most recent
reviews of the BI unit were conducted by the RRB’s MCOSs 22 about four years
ago, in May and June of 2005.

The MCOS’ reviews of program integrity are scheduled at the beginning of the
year based on available resources. The reviews performed each year are
rotated among the several MIP components which include the BI unit; however,
the RRB has not established a formal planning process for determining the
frequency with which these components will be evaluated.

Absent a formal planning process and management expectation concerning
program coverage, RRB officials may not have the information they need to
provide adequate stewardship.

Recommendation

We recommend that RRB officials:

      11. work with the Program Support Division to establish a long-range planning
          process for conducting recurring reviews of Palmetto’s MIP components.

Management’s Response

RRB officials agreed with our recommendation and will establish a long-range
planning process for conducting MIP reviews. The full text of the RRB’s
response is included as Appendix III to this report.




21
     Medicare Integrity Program
22
     MCOSs refers to the RRB’s Medicare Contractor Operations Specialists


                                               17
Prioritization of Information Requests Could Be Improved

Palmetto’s BI unit did not prioritize and complete information requests in
accordance with CMS’ timeliness standards.

The BI unit is responsible for providing information to support the investigation of
Medicare fraud, including the efforts of the RRB-OIG’s Office of Investigations.
The PIM requires that Priority I requests be fulfilled within thirty (30) days when
the information or material is contained in the BI unit’s files. BI units shall
respond to less critical Priority II requests within 45 calendar days or if that
timeframe cannot be met, the BI unit shall notify the requesting office within the
45-day timeframe, and include an estimate of when all requested information will
be supplied. 23

Palmetto officials advised that the BI unit attempts to respond to RRB-OIG
requests in a reasonable time, attempting to complete their action within 30 days,
and prioritizes cases by marking them as "rush." However, the BI unit's control
spreadsheet detailing its handling of law enforcement requests did not identify
the type of request and did not indicate which requests were categorized as
"rush."

Although the BI unit does not prioritize this workload in accordance with the PIM,
approximately 91% of all responses in calendar year 2008 were timely because
they were completed within 30 days.

                              Number
                                 of    Processing    %
                              Requests    Time     Down
                                  2        65 days    3%
                                  1        63 days    2%
                                  1        57 days    2%
                                   1       37 days    2%
                                 51     <=30 days    91%
                                ====               =====
                                 56                 100%

The Railroad Medicare BI unit is not fully compliant with PIM requirements for
prioritization. As a result, the effectiveness of performance in this area cannot be
fully measured because the requests were not initially identified as Priority I and
Priority II. In addition, the unit may not be prepared to prioritize and respond
within PIM requirements should the workload increase. Prioritization is critical to
a process that is already constrained by limited staff. We note again that the
BI unit has one full-time investigator, the only staff dedicated to BI activities.


23
     Chapter 4.4.1(G) of the PIM


                                          18
Recommendation

We recommend that Palmetto officials:

      12. classify RRB-OIG’s Office of Investigations referrals and other BI unit
          information requests as Priority I or Priority II and monitor the timeliness of
          its responses to ensure compliance with PIM requirements.

Management’s Response

Palmetto officials advised that they have established procedures addressing
Priority I and Priority II requests. The full text of Palmetto’s response is included
as Appendix IV to this report.


Waiver of Medical Director Should Be Requested

Palmetto does not employ a dedicated medical director for Railroad Medicare
and has not obtained a waiver of that PIM requirement from CMS. In addition to
other responsibilities, the medical director serves as benefit integrity advisor.

The PIM requires that, “[c]ontractors who perform medical review must employ a
minimum of one FTE [full-time equivalent] contractor medical director (CMD) and
arrange for an alternate when the CMD is unavailable for extended periods.
Waivers for very small contractors may be approved by the CO.” 24 25

Palmetto officials stated that the Medical Director for Railroad Medicare was
eliminated prior to implementation of the CMS waiver requirement. Palmetto
officials believe they did not need to request a waiver but never solicited an
approval from CMS. These officials also noted that inquiries can be directed to
other, non-Railroad, Medicare medical directors to support independent medical
decisions by clinicians; however no formal procedure has been established.

Absent a formal waiver, Palmetto may not be fully complaint with current PIM
requirements.




24
     CO refers to CMS Central Office.
25
     Chapter 1.4 of the PIM


                                            19
Recommendation

We recommend that Palmetto officials:

       13. formalize their assessment that no Medical Director is necessary and
           request that CMS waive the PIM requirement; and
       14. establish formal procedures for the Railroad Medicare program to obtain
           the services of other Medical Directors as necessary.

Management’s Response

Palmetto officials agreed with our recommendations and will request a Medical
Director waiver from the RRB. These officials also advised that the CMD position
had been eliminated by the previous contractor and had not been required by the
RRB in its contract with Palmetto. Procedures will also be established for
obtaining professional Medical Director support services when the need arises.
The full text of Palmetto’s response is included as Appendix IV to this report.

RRB OIG’s Comments on Management’s Response

We clarify that according to the PIM, the waiver must be approved by CMS.


Internal Reporting of Overpayment Recoveries Could Assist Operations

The Railroad Medicare BI unit does not receive notification when refunds are
received or periodic reports on the status of collections because current
procedure does not require it.

The BI unit’s procedure directs closure of a case when, “[e]vidence of improper
practices was identified and the case was either referred to law enforcement and
denied or handled administratively and all administrative actions have been
completed.” 26

The BI unit does not receive information confirming overpayment recoveries
received from providers. This information is available on a request basis but no
periodic or annual report is produced and the BI unit does not presently request
this information.

Without confirmation of monetary recoveries, the BI unit cannot monitor its
operational progress and effectiveness or consider collection experience in
determining how to expend the BI unit’s scarce personnel resources.



26
     Palmetto Case Closure Instruction, pg. 1


                                                20
Recommendation

We recommend that Palmetto officials:

   15. request that periodic reports be provided to the BI unit detailing the status
       of BI collections on a case-by-case basis.

Management’s Response

Palmetto officials agreed with our recommendation and advised that a detailed
report of any collections that have occurred will be provided by the Finance unit
on request. The full text of Palmetto’s response is included as Appendix IV to this
report.




                                         21
                                                                          APPENDIX I

                         Railroad Medicare Program
                     Estimated Improper Payment Levels


The following table summarizes the RRB-OIG’s estimate of the improper
Railroad Medicare payments occurring by year during the period when RRB-OIG
was prohibited from conducting Railroad Medicare oversight.

Improper payment estimates were computed by applying CERT National Error
Rates based on prior year claims to prior year Railroad Medicare Payments. The
CERT National Error Rate applicable to 2008 claims was not available prior to
the issuance of this report.

This estimate includes payments by Palmetto GBA (Carrier #882) and United
HealthCare. Prior to April 2000, United HealthCare was the Railroad Medicare
carrier.

                CERT National       Railroad Medicare        Estimated Improper
         Year    Error Rates     Payments (in millions)     Payments (in millions)
         1997       8.4%                   $671                    $56.4
         1998       8.6%                   $673                     $57.9
         1999       9.4%                   $686                     $64.5
         2000       8.8%                   $696                     $61.2
         2001       8.0%                   $762                     $61.0
         2002       6.4%                   $788                     $50.4
         2003      10.1%                   $845                     $85.3
         2004       5.2%                   $923                     $48.0
         2005       4.4%                   $870                     $38.3
         2006       3.9%                   $901                     $35.1
         2007       3.7%                   $897                     $33.2
                             Total for Years 1997 - 2007:          $591.3

For comparative reference, actual 2007 CERT data for Palmetto’s non-Railroad
operations is shown below:

     Carrier                CERT National Error        Improper Payments (in
                            Rates - Actual             millions) – Actual
     Palmetto South         4.5%                       $48.9
     Carolina (880)
     Palmetto Ohio/West     3.6%                       $115.8
     Virginia (883/884)




                                         22
                                                                              APPENDIX II

                      Evaluation of Benefit Integrity Procedures

This appendix provides the detailed criteria and results of our review of
Palmetto’s procedures as compared with CMS’s Program Integrity Manual (PIM),
Chapter 4, Benefit Integrity. Our findings and recommendations are presented
beginning on page 15.

Program Integrity Manual Excerpt 27                  Auditor Evaluation of Palmetto BI
                                                     Procedures
(Section 4.2.2.4) Procedural
Requirements

Maintain confidentiality of referrals to the         Palmetto’s fraud identification and
PSC or ZPIC.                                         referral procedures do not address
                                                     this requirement.
The ACs and MACs 28 ensure the
performance of the functions below and
have written procedures for these
functions:

Ensure all instances where an excluded               Palmetto’s procedures regarding
individual or entity that submits claims             sanctioned providers do not address
for which payment may not be made                    this PIM function.
after the effective date of the exclusion
are reported to the OIG (see PIM,
chapter 4, §4.19ff).

(Section 4.2.2.6) Benefit Integrity
Security Requirements

The following workstation security          Palmetto’s procedures do not address
requirements are specified and              these PIM security requirements.
implemented: (1) what workstation
functions can be performed, (2) the
manner in which those functions are to
be performed, (3) and the physical
attributes of the surrounding of a specific
workstation or class of workstation that
can access CMS sensitive information.
CMS requires that for PSCs 29 and
ZPICs 30 all the local workstations as
well as the workstations used at home
comply with these requirements.
27
   Criteria excerpts from the PIM are provided for reference.
28
   Affiliated contractors and Medicare administrative contractors
29
   Program Safeguard Contractors
30
   Zone Program Integrity Contractor


                                                23
                                                                        APPENDIX II

                    Evaluation of Benefit Integrity Procedures

Program Integrity Manual Excerpt 27              Auditor Evaluation of Palmetto BI
                                                 Procedures
Direct mailroom staff not to open PSC or
ZPIC BI unit mail in the mailroom, unless
the PSC or the ZPIC has requested the
mailroom do so for safety and health
precautions.

The PSC and the ZPIC shall perform
thorough background and character
reference checks, including at a
minimum credit checks, for potential
employees to verify their suitability for
employment with the PSC or the ZPIC
BI unit.

(Section 4.4.1) Requests for Information
From Outside Organizations

The PSC and the ZPIC BI units shall              Palmetto’s law enforcement
provide the OIG/OI with requested                procedures do not address these PIM
information, and shall maintain cost             requirements.
information related to fulfilling these
requests.

Priority I requests shall be fulfilled within
thirty (30) days when the information or
material is contained in the PSC or the
ZPIC BI unit’s files unless an exception
exists . . . .

In order for CMS to track disclosures
that are made to law enforcement and
health oversight agencies, PSCs and
ZPICs shall send a copy of all requests
for data to the CMS Privacy Officer . . . .




                                            24
                                                                          APPENDIX II

                     Evaluation of Benefit Integrity Procedures

Program Integrity Manual Excerpt 27              Auditor Evaluation of Palmetto BI
                                                 Procedures
(Section 4.7) Investigations

An investigation is the analysis                 Palmetto’s investigation procedures
performed on both proactive and                  have not been updated since 2005.
reactive leads (e.g., complaints, data           The current PIM references Revision
analysis, newspaper articles) in an effort       259 dated June 13, 2008. Palmetto’s
to substantiate the lead or allegation as        case closure instructions reference
a case.                                          the terms “investigation” and “case”
                                                 interchangeably and no distinction has
                                                 been made of how each is to be
                                                 closed.

(Section 4.7.2) Closing Investigations

An investigation shall be closed if it           Palmetto’s case closure instructions
becomes a case (i.e., it is referred to          reference the terms “investigation”
OIG, DOJ 31 , FBI, or AUSA 32 ), if it is        and “case” interchangeably and no
referred back to the AC, MAC, or to              distinction has been made of how
another PSC or another ZPIC due to an            each is to be closed.
incorrect referral or misrouting, or if it is
closed with administrative action (refer
to §4.11.2.8 for FID 33 instructions on
closing investigations).

(Section 4.8) Disposition of Cases

The definition of a case includes any            Palmetto’s case closure instructions
and all allegations (regardless of dollar        reference the terms “investigation”
threshold or subject matter) where PSC           and “case” interchangeably and no
or ZPIC BI unit staff verify to their own        distinction has been made of how
satisfaction that there is potential             each is to be closed.
Medicare fraud (the allegation is likely to
be true) and a referral to law
enforcement has been performed.




31
   Department of Justice
32
   Assistant United States Attorney
33
   Fraud Investigation Database


                                            25
                                                                         APPENDIX II

                        Evaluation of Benefit Integrity Procedures

Program Integrity Manual Excerpt 27             Auditor Evaluation of Palmetto BI
                                                Procedures
(Section 4.11.1.2) Entering OIG
Immediate Advisements into the FID

The PSC and the ZPIC shall enter all            Palmetto’s law enforcement referral
available information into the FID, as an       procedures do not address this PIM
investigation, concurrent with, or within       requirement.
15 calendar days after, the “immediate
advisement” and shall be converted to a
case if the OIG accepts it.

(Section 4.11.2.1) Initial Entry
Requirements for Investigations

Investigations initiated by the PSC and    Palmetto’s case activation procedures
the ZPIC BI unit shall be entered into the do not address this PIM requirement.
FID within 15 calendar days of the start
of the investigation (Investigations are
defined in PIM, chapter 4, §4.7).

(Section 4.11.2.3) Initial Entry
Requirements for Payment Suspensions

The PSC and the ZPIC shall enter                Palmetto’s fraud referral procedure
information on payment suspensions              does not address this PIM
into the FID Suspension Module no later         requirement.
than 5 business days after the effective
date of the suspension.

(Section 4.11.2.5) Update Requirements
for Cases

For cases referred to the OIG, the              Palmetto’s fraud referral procedure
FBI 34 , or other law enforcement agency,       does not address this PIM
updates to the FID case shall be made           requirement.
at least every 3 months (1 month is a
maximum of 31 days).




34
     Federal Bureau of Investigation


                                           26
                                                                        APPENDIX II

                   Evaluation of Benefit Integrity Procedures

Program Integrity Manual Excerpt 27            Auditor Evaluation of Palmetto BI
                                               Procedures
(Section 4.11.2.9) Closing Cases

An active FID case shall be closed when        Palmetto’s case closure instructions
no further action will be required of the      reference the terms “investigation”
PSC or the ZPIC BI unit by law                 and “case” interchangeably and no
enforcement agency(ies) working the            distinction has been made of how
case and when the law enforcement              each is to be closed.
agency(ies) has ended all its activity on
the case; and when all necessary
administrative actions have been
finalized (i.e., when the calculated
overpayment has been referred to the
AC or MAC for recoupment).

(Section 4.19.1) The Program
Safeguard Contractor’s, Zone Program
Integrity Contractor’s, AC’s, and
Medicare Administrative Contractor’s
Role

The PSC and the ZPIC BI unit shall also
be responsible for:

Contacting OIG/OI when it determines           Palmetto’s sanctioned provider
that an administrative sanction against        procedures do not address these PIM
an abusive provider/supplier is                requirements.
appropriate.

Providing OIG/OI with appropriate
documentation in proposed
administrative sanction cases.

(Section 4.19.2.2) Identification of
Potential Exclusion Cases

The PSC and ZPIC BI unit shall review          Palmetto’s sanctioned provider
and evaluate abuse cases to determine          procedures do not address these PIM
if they warrant exclusion action.              requirements.




                                          27
                                                                             APPENDIX II

                     Evaluation of Benefit Integrity Procedures

Program Integrity Manual Excerpt 27                Auditor Evaluation of Palmetto BI
                                                   Procedures
(Section 4.19.4.1) Monthly Notification of
Sanction Actions

The PSCs, ZPICs, ACs and MACs shall
use the information contained in the
MED 35 and GAO 36 Debarment list to:

Determine whether a                                Palmetto’s sanctioned provider
physician/practitioner/provider or other           procedures do not include a review of
health care supplier who seeks approval            the GSA Debarment list (EPLS) along
as a provider of services in the                   with the HHS Exclusion Database
Medicare/Medicaid programs is eligible             (LEIE).
to receive payment[.]

Ensure that sanctioned providers are not Palmetto’s sanctioned provider
being inappropriately paid . . . .       procedures do not address these PIM
                                         requirements.
The ACs and MACs shall check
payment systems periodically to
determine whether any individual or
entity who has been excluded since
January 1982 is submitting claims for
which payment is prohibited.

(Section 4.27) Annual Deceased-
Beneficiary Postpayment Review

On an annual basis, PSC and ZPIC                   Palmetto’s post-payment review
BI units shall submit a report on the              procedures do not address this PIM
accounting of the improper payments                requirement.
identified by the PSC and ZPIC BI unit
and respective overpayments recouped
by the AC and MAC. This report shall
be due on December 5th of each year
and sent to the Primary GTL 37 . The
report shall also be sent via e-mail to the
Director of the Division of Benefit
Integrity Management Operations.



35
   Medicare Exclusion Database
36
   GSA maintains the EPLS which is referred to here as the Debarment list.
37
   Government Task Leader


                                              28
                                                                                   APPENDIX III
                                                                                      FORM G-115f (1·92)

                                                                     RAILROAD   RETIREMENT    BOARD
                MEMORANDUM




             Letty Benjamin Jay
             Assistant Inspector General for Audit


             Henry~~~
             Director   0.    i .stration/Sen~xecutive     Officer

             Dorothy Isherwood
             Director of Programs

SUBJECT: Draft Audit Report
         Audit of Railroad Medicare Integrity Program at Palmetto
         Government Benefits Administrators


Thank you for the opportunity to review the Office of Inspector General's draft audit
report entitled "Audit of the Railroad Medicare Integrity Program at Palmetto
Government Benefits Administrators (PGBA)." We support efforts to safeguard Medicare
payments and ensure that Medicare Integrity Program (MIP) funds are used effectively.
While your recommendations deal primarily with our current Medicare contractor PGBA,
we are preparing to solicit for an RRB Specialty Medicare Administrative Contract
scheduled to be awarded early in fiscal year 20 11. We will be mindful of any
recommendations that apply to program integrity activities in awarding the replacement
contract.

We have reviewed the draft report and are providing the following comments to the
recommendations directed to "RRB Officials":




Request that Palmetto officials identify and monitor the specific benefit integrity cost
components either through revised CAFM II activity reporting or independently of the
CAFM II process.

The Office of Administration concurs with the recommendation and will request the
funding to perform the monitoring starting with the new contract period on October 1,
2009.




                                              29
                                                                            APPENDIX III




Request funding to support a benefit integrity program commensurate with Railroad
Medicare's exposure to improper payments as estimated using CERT methodology.

The Office of Administration concurs with recommendation nos. 3,4 and 5 and will
submit the request along with the budget request for FY 2010. The Railroad Specialty
MAC solicitation currently being formed would address and provide for these functions
and program safeguards in coordination with CMS.




We recommend that RRB officials work with the Program Support Division to establish a
long-range planning process for conducting recurring reviews of Palmetto's MIP
components.

The Office of Programs concurs with Recommendation 11. The Unemployment and
Programs Support Division will establish a long-range planning process for conducting
recurring reviews of Palmettos' MIP components by September 30,2009.

In conclusion, the responsible officials in the Office of Administration and Office of
Programs agree with the OIG's recommendations in their respective areas, and remain
committed to strengthening the Medicare integrity program in cooperation with PGBA
and CMS. Thank you again for the opportunity to comment on the draft report and please
contact us if you have any questions or require additional information.




                                            30
                                                                    APPENDIX III



cc:   Mr. Bruce W. Hughes
      President and Chief Operating Officer
      Palmetto GBA, LLC
      2300 Springdale Drive, Bldg. One, Mail Code AG-A03
      Camden, SC 29020-1728

      Michael S. Schwartz, Chairman
      Jerome F. Kever, Management Member
      V. M. Speakman, Jr., Labor Member
      Catherine A. Leyser, Director of Assessment and Training
      Joseph Giansante, Medicare Contractor Operations Specialist




                                            31
     APPENDIX IV




32
                                                                                                                                  APPENDIX IV

        Report        Audit Recommendations
       Reference        for Palmetto Officials:                                          Palmetto GBA response:
     Page 7,       Work with CMS and RRB              The Railroad BI unit has been successful in the past in joining with the Department of Health
     Item 1        officials to obtain the budget     and Human Services OIG along with other law enforcement agencies in identifying fraud in the
                   and staff resources needed to      Medicare program. We are fully supportive of this recommendation and in full agreement with
                   conduct the proactive fraud        the Railroad Retirement Board response to pursue the necessary funding to conduct the
                   investigation and data analysis    proactive fraud investigation and data analysis responsibilities outlined in the PIM.
                   responsibilities outlined in the
                   PIM.
     Page 11       Revise its sanction monitoring     General Services Administration's (GSA) Excluded Parties List System (EPLS) is referenced in
     Item 6        procedure to ensure that the       Chapter 10 under the prescreening of 855 applications section. Below is the verbiage:
                   Provider Enrollment unit                 “Confirm that the applicant, all individuals and entities listed on the application and any
                   performs a reconciliation with           names or entities ascertained through the use of an independent verification source, are
                   the EPLS                                 not presently excluded from the Medicare program by the HHS Office of the Inspector
                                                            General (OIG). Contractors shall confirm and validate data through Qualifier.net the
                                                            Medicare Exclusion Database, and the General Services Administration (GSA)
                                                            debarment list, in accordance with existing CMS instructions and directives.”
33




                                                      Based on the above information, the EPLS system check would be done during the time that an
                                                      855 enrollment form is completed and approved by the Part B Carrier(s). If the provider was not
                                                      approved by the Part B Carrier(s), per the instructions from Chapter 10 stated above, Railroad
                                                      would not find the provider(s) as being "active" on the Part B Carriers’ files (SUPERPES). All
                                                      providers are verified against the Part B Carrier files (SUPERPES), before Railroad adds the
                                                      provider and issues a provider number in the RR provider file database. As stated during the
                                                      OIG Audit, Railroad has not added providers to the Railroad Provider File until the provider(s)
                                                      have submitted an 855 enrollment application to their Part B Carrier and that provider has been
                                                      credentialed and enrolled by the Part B Carrier(s). It is important to note that per CMS
                                                      instruction, Railroad Medicare does not process 855 enrollment applications.

                                                      All existing providers are checked monthly against the LEIE/OIG exclusion list and flagged as
                                                      SANCTIONED as required which will stop any RR Medicare payments. Also, a copy of the
                                                      monthly OIG exclusion list with our provider findings is supplied to the Benefits Integrity
                                                      Investigator.

                                                      **Effective August 13, 2008 we re-started supplying the completed monthly OIG exclusion
                                                      report and included copies of all 2008 exclusions for payment investigation purposes. After the
                                                      RRB OIG Audit was performed in Augusta, it was suggested that we return to providing this

                                                                                                                                                          1
                                                                                                                               APPENDIX IV

                                                   report to the Benefits Integrity Unit and we have done so.
     Page 11,   Establish BI unit procedures for   In conjunction with the response to Item 6, effective August 13, 2008, Provider Enrollment has
     Item 7     investigating payments             been providing BIU with a monthly OIG exclusion list. The list provides BIU with any RRB
                submitted by excluded              sanctioned providers. BIU has created a procedure to perform data analysis on claims prior to
                providers prior to their           the exclusion date. The data analysis will include all claims dated back 5 years from the date of
                exclusion date and refer claims    exclusion. The claims and any other relevant information will be reviewed for fraudulent
                to the RRB-OIG's Office of         activity. If any fraud is suspected, an immediate referral will be made to RRB-OIG Office of
                Investigations for further         Investigation.
                investigation as appropriate       **Effective August 13, 2008 we re-started supplying the completed monthly OIG exclusion
                                                   report and included copies of all 2008 exclusions for payment investigation purposes. The
                                                   supplying of the completed monthly OIG exclusion report had been discontinued at our Benefits
                                                   Integrity Unit's request due to lack of staffing to work the monthly list. After the RRB OIG
                                                   Audit was performed in Augusta, it was suggested that we return to providing this report to the
                                                   Benefits Integrity Unit and we have done so.

     Page 12    Coordinate the referral of high    Concur – Palmetto GBA Finance Department will provide BIU with a monthly RRB Accounts
     Item 8     dollar payments and                Receivable (AR) report. Any overpayments over $10,000 will be referred to the BIU
                receivables, those in excess of    Investigator. If no overpayments are demanded for any given month, an email from Finance will
34




                $10,000, with the RRB-OIG's        be sent to BIU notifying the Investigator.
                Office of Investigations
                                                   Any receivables or payments in excess of $10,000 transferred to the BIU Investigator from
                                                   Finance will be immediately referred to RRB OIG Office of Investigation.
     Page 13,   Request specific funding for       Non concur - due to previous reviews by RRB Program Support Staff, all employees receive
     Item 9     fraud related training and         technical based training (TBT), at a minimum, of once per year. Each associate working on the
                actively monitor staff             RRB contract receives a minimum of 15 minutes Fraud Awareness training, totaling
                compliance with the CMS' PIM       approximately 50 hours of fraud awareness training annually.
                and the RRB contract's benefit
                integrity training requirements    In addition, the BIU investigator is currently obtaining Certified Fraud Examiner status.
     Page 14    Correct the identified BI unit     Concur. Procedures were established August 13, 2008. As noted while the auditors were on-
     Item 10    procedural deficiencies and        site, some of the procedures listed in the audit report had established procedures and were
                ensure that procedures have        provided at the time of review. (Example: page 14, bullet three “Reimbursement when the
                been developed to address all      beneficiary has paid a provider for services and the provider has received payment.” The
                CMS PIM requirements.              procedures were in existence and supplied to auditors when they were on site.) In addition,
                                                   work instructions have been developed and are available upon request. It should be noted, any
                                                   procedures needing to be revised to reflect CMS PIM requirements are complete. Palmetto is
                                                   ISO 9000 certified. BIU completed an ISO 9000 audit on July 28, 2009, which resulted in no
                                                   deficiencies and CMS control objectives were met

                                                                                                                                                       2
                                                                                                                               APPENDIX IV


     Page 16,   Classify RRB-OIG's Office of      BIU responds immediately to any rush request from RRB-OIG. Data analysis request are
     Item 12    Investigations referrals and      forwarded to Medicare Statistical Analysis Department (MSAD), which is completed within 3 to
                other BI unit information         4 weeks. Depending on the size of the request, it could take longer. BIU communicates with the
                requests as Priority I or         point of contact Special Agent to inform the OIG of any request being late or taking an extended
                PriorityII and monitor the        time to complete. With a high volume of request from RRB-OIG, MSAD has created a query for
                timeliness of its responses to    BIU to help process requests more efficiently.
                ensure compliance with PIM
                requirements                      Priority I – This type of request is a top priority request requiring a quick turnaround. The
                                                  information is essential to the prosecution of a provider. The request shall be completed with the
                                                  utmost urgency. Priority I requests shall be fulfilled within thirty (30) days when the information
                                                  or material is contained in the BI unit’s files

                                                  Priority II – This type of request is less critical than a Priority I request. Development requests
                                                  may require review or interpretation of numerous records, extract of records from retired files in
                                                  a warehouse or other archives, or soliciting information from other sources. Based on the review
                                                  of its available resources, the PSC and the ZPIC BI unit shall inform the requestor what, if any,
                                                  portion of the request can be provided. The PSC and the ZPIC BI unit shall provide the relevant
35




                                                  data, reports, and findings to the requesting agency in the format(s) requested. The BI units shall
                                                  respond to such requests within 45 calendar days, when possible.

                                                  Procedures have been established for the above instructions taken from the Program Integrity
                                                  Manual and are available upon request.
     Page 17,   Formalize their assessment that   Concur. We will submit a request for waiver to the Railroad Retirement Board. The RRB
     Item 13    no Medical Director is            handles all waiver requests for the Railroad Medicare contract.
                necessary and request that CMS
                waive the PIM requirement; and Please note that the auditors were informed that the CMD position for the RRB contract was
                                                  eliminated by the previous contractor well before Palmetto GBA became the Railroad Medicare
                                                  contractor in September 2000. During the transition from United HealthCare to Palmetto GBA,
                                                  no requirement was made by the RRB to employ a CMD for this contract.
     Page 17,   Establish formal procedures for Concur. We will document procedures to obtain services by current Palmetto Medical Directors
     Item 14    the Railroad Medicare program to review RRB cases, if necessary. As noted to the auditors, as Medical Review management
                to obtain the services of other   and clinicians determine that CMD review is necessary, we currently utilize Palmetto CMDs;
                Medical Directors as necessary however, since the Railroad contract does not formulate LCDs the need does not arise
                                                  frequently.
     Page 18,   Request that periodic reports be Concur – BIU Investigator contacts the Finance Department, regarding any collections on BIU
     Item 15    provided to the BI unit detailing overpayments. On request from the BIU Investigator, the Finance Unit provides a detailed report

                                                                                                                                                        3
                                                                                                                            APPENDIX IV

                   the status of BI collections on a   of any collections that have occurred on BIU overpayments.
                   case-by-case basis


     Note: The RRB OIG audit report included recommendations for RRB Officials, the Palmetto GBA response does not include responses to those
     items noted in the report for RRB Officials (Items 2, 3, 4, 5, and 11).
36




                                                                                                                                                4
